                           Office of Inspector General
                          Corporation for National and
                                   Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE'S
FISCAL YEAR 2008 FINANCIAL STATEMENTS

         Audit Report Number 09- 01




                                          NATIOONAL&
                                          COMMUNITY
                                          SERVICE .............




                      Prepared by:

              CLIFTON GUNDERSON LLP
                  11710 Beltsville Drive
               Calverton, Maryland 20705




This report was issued to Corporation management on November 14, 2008.
Under the laws and regulations goveming audit follow up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than May 14, 2009, and complete its corrective
actions by November 14, 2009. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                         NATIONAL&'
                                         COMMUNITY
                                         SERVICEfJX'C
                              OFFICE OF INSPECTOR GENERAL

                                           November 14.2008

TO:              David Eisner
                 Chief Executive Officer

                 Nicola Goren
                 Chief of Staff


FROM:            Gerald Walpin
                 Inspector General


SUBJECT:         Audit ofihe Corporation for National and Conununity Service's Fiscal Year 2008
                 Financial Statements, Audit Report Number 09-01

We contracted with the independent certified public accounting fiml of Clifton Gunderson LLP
(Clifton) to audit the financial statements of the Corporation for National and Community
Service (Corporation) as of September 30, 2008 and 2007, and for the years then ended. The
contract required that the audit be performed in accordance with generally accepted government
auditing standards.

In its audit. Clifton found

      •   The financial statements were fairly presented, in all material respects, in conformity with
          generally accepted accounting ptinciples;

      •   One significant deficiency related to the Corporation's business continuity controls over
          information technology challenges it experienced during 2008.

Clifton Gunderson is responsible for the attached auditor's report, dated November 14, 2008, and
the conclusions expressed therein. The Office of lnspector General does not express an opinion
on the Corporation's Financial Statements or Clifton's conclusions about the effectiveness of
internal control or compliance willI laws and regulations.

Attaclmlent

cc:       Frank Trinity, GeneraJ Counsel
          Klistin McSwain, Chjef of Program Operations
          William Anderson. Deputy CFO for Financial Management
          Rocco Gaudio, Deputy CFO for Planning and Program Management
          ShetTY Blue, Audit Resolution Coordinator
          Bill Oliver, Engagement Partner, Clit1:o tl Gunderson LLP C'vviti1oltt attachment)

                          1201 New York Avenue, NW * Sui te 830, Washington, DC 10525
                             102-606-9390 '" Hot li ne: 800-451-82JO * www.cllcsig.gov
                                                                                               USAi~
                                                                                               Freedom Corps
                                                                                               Make a Difference. Volunleer.
~Clifto
~ Gund~rson LLP
             Cerliiied Publi c Accountants 8< COllsu ltants




                                                     Independent Auditor's Report


To the inspector General
  Corporation for National and Community Service


We have audited the accompanying Statement of Financial Position of the Corporation for
National and Community Service (Corporation) as of September 30, 2008 and 2007, and the
related statements of Operations and Changes in Net Position, Budgetary Resources and Cash
Flows for the years then ended. These financial statements are the responsibility of Corporation
management Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Audning Standards issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards require that we plan and periorm
the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement An audit indudes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estima1es made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Corporation as of September 30, 2008 and 2007, and the results of
its operations and changes in net position, budgetary resources, and cash flows for the years
then ended in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 14, 2008, on our consideration of Corporation's internal control over financial
reporting and on our tests of its compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, not to provide an
opinion on internal control over financial reporting or compliance. Those reports are an integral
part of our audit perionned in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.




I! 710 B ~IIsVJIJF Driw, SlIijd 300
C:'(;/''tIr/O IJ, AJD 20705-3106
tel: 30'1-931-2050
fax: 301-931-1710
www.cLif[onepa.com                                      G ibers io 17 S13tCS ~ nd   Wa~hingto n,   DC
The Management's Discussion and Analysis (MD&A) is not a required part of the financial
statements but is supplementary information required by accounting principles generally
accepted in the United States of America. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of the required supplementary information. However, we did not audit the
information and express no opinion on it.

The Message from the Chief Executive Officer and Glossary are presented for additional
analysis and are not a required part of the financial statements. Such information has not been
subjected to the auditing procedures applied in the audit of the financial statements and,
accordingly, we express no opinion on them.




Calverton, Maryland
November 14, 2008
FINANCIAL STATEMENTS
TIle Corpora tion' s financia I sta tements report the financial posi tion, resu lts of
operations, cash flows, and budgetary resources, as required by the
Government Corporation Control Act (Act) and the President's February 27,
2004, Executive Order on National and Community Service Programs (EO
13331). The Government Corporation Control Act requires that government
corporations submit an annual report to the Congress with..in 180 days of the
fiscal year end. As specified in the Act, the principal financial statements of the
Corporation ore the:
   •   Statement of Financial Position, which reports the status of Corporation
       assets, liabilities, and net position,
   •   Statement of Operations and Changes in Net Position, which reports the
       Corporation's revenues and expenses for the year and the changes in net
       position that occurred during the year.
       Statement of Cash Flows, which shows how changes in the
       Corporation's financial pOSition and results affected its cash (Fund
       Balance with Treasury), and breaks the analysis down according to
       operating, investing, and financing activities.
In addition, under the requirements of Executive Order 13331, the Corporation
prepares a Statement of Budgetary Resources (SBR). The SBR provides
information about the budgetary resources made available to the Corporalion as
well as the staJus of those resources at the end of the fiscal year.
The Corporation's financial statements present comparative infonnation for
fiscal 2008 and 2007. For (iscaI2008, the Corporation's financiaJ statements, for
the ninth consecutive year, received an unqualified opinion. This opinion
recognizes that the Corporation·s flnancial statements are fairly presented, in all
material respects, and in conformity with generally accepted accounting
principles.

Li mitations of the Financial Statements
The principal financial statements have been prepared Lo report the financial
position, results of operations, and cash flows of the Corporation for National
and Community Service, as required by the Government Corporation Control
Act (31 USC 9106) and by the National and Community Service Act of 1990 (42
USC 12651). In addition, the Corporation reports on its budgetary resources in
accordance with Executive Order 13331. The CorporCltion's fin ancial statements
~)ublished herein are in addition to the financial reports it uses to monitor and
control budgetary resources which are ~1repared from the same books and
records. The statements should be read wi th the realization that they are for a
component of lh~ U.s. Govermnent, a sovereign entity. One implication of this
is that liabilities Gillnot be liquidated without legislation that provides the
reSOLlfce~ to do so.
                      Corporation for National and Community Service
                       Consolidated Statements of Financial Posi tion
                                    As of September 30
                                             (nollny" in tiJOIl5fll'nS)



ASSETS                                                                         2008                2007
Fund Balance with Treasury (Noll' 2)                                      $     822,989        $    886,505
Trust lnve tme n!s and Relaled Receivables (Not~ 3)                             483,880             465,391
Advances to Others                                                               59,388               61,975
Accounts Receivable, Net (Notl 4)                                                  2,616               3,247
Property and Equipment, Net (Note 5)                                               3,043               2,107
   Total Assets                                                                                $   1,419,225



LIABILITIES
Trust Service Award Liability (Notl! 6)                                   $     303,367        $    280,597
Grants Payable                                                                   89,456              99,805
Accounts Payable                                                                   7,231               6,141
AChlarial FECA Liabilily (Note 8)                                                11,638              11,888
Other Liabilities                                                                14,200              13,331
Accrued Annual Leave                                                               3,-164              3,165
Advances from Others                                                                  290                 102
Capital Lease Liability                                                               250                 250
  Total Liabilities                                                             429,596             415,279


Contingencies (Notl' 14)


NET POSITION
Unexpended Appropriations                                                       769,016             828,597
Cumulative Results of Operations                                                [73,304             -175,349
   Tota[ Net Position (Notl"' 9)                                                942,320            1,003,946


Total Liabilities and Net Position                                        $   1,371,916        $   1,419,225




             The nccompnnyhlg Hotes art' nn illtegral part of fJ/('Sffi IWll cilll statellle11t:
                   Corporation for National and Community Service
           Consolidated Statements of Operations and Changes in Net Position
                           For the Years Ended September 30
                                               (dollars in tllO!lSlllffis)



REVENUE                                                                             2008                2007
Appropriated Capital Used                                                     $      748,580        $    779,456
Appl'oprial-ions Transferred to (-he Trust Fund (Note 10)                            138,785             117,720
fnterest                                                                               17,804             19,563
Revenue [Tom Service. Provided                                                          8,111               7,404
Other                                                                                      776              2,452
   Total Revenue                                                                     914,056             926,595



EXPENSES
AmeriCorps                                                                           630,424             622,304
SeniorCorps                                                                          236,794             240,828
Learn and Serve America                                                               42,436              59,503
   Subtotal - Program Expenses                                                       909,654             922,635
Pass-through Grants                                                                        163             2,78J
Office of the InspectOl- General                                                        6,284               5,634
   Total Expenses (Notl' 17)                                                         916,101             931,050


Net- of Revenue Over Expenses                                                          (2,045)             (4,455)


NET POSITrON
Net of Revenue over Expenses                                                           (2,045)             (4,455)
lncrease/(Decrease) in Unexpended Appropriahons, Net (Notl! 73)                       (59,581)            (43,536)
Increasel(Decrease) in Net Position, Net                                              (61,626)            (47,991 )
Net Position, Beginning Balance                                                    1,003,946            1,051,937


   Net Position, Ending Balance (Not!' 9)                                     $      942,320        $   1,003,946




              Tile nccompnnying l10tes /1/'(' nil integrlll port of tJlt'se(inollcil11 stntt'lIlfHfs,
                         Corporation for National and Community Service
                             Consolidated Statements of Cash Flows
                                For the Years Ended September 30
                                               (dalllH's ill 1I1() IJSlllu/s)


CASH FLOWS FROM OPERA TING ACTIVITIES                                                2008                2007
Net of Revenue over Expenses                                                    $       (2,045)     $       (4.455)

Adjllshnenls Affecting Cash Flow:
   Appropriated Capital Used                                                          (748,580)          (779,456)
   Appropri<ltions Received in Trust                                                  (138,785)          (i 17.720)
   Decrease/(lncrease) in Accounts Receivable                                               631             (1,192)
   Decrease / (Increase) in Interest Receivable                                             (697)            C179
   Decre,)se/(Increase) in Advances                                                      2,587              (1,928)
   [ncrease/(Decrease) in Accounts Payable and Other Liabilities                         2,147               2,277
   fncrease/(Decrease) in FECA and Annual Leave Liabilities                                 (249)           (1,220)
   lncrease/{Decrease) in Capital Lease Liability                                                               (77)
   [ncrease/(Decrease) in Trust Liability                                               22,770             13,654
   lncrease/(Decrease) in Grants Payable                                               (10,349)            11 , 166
   Amortization of Premium/Discount on Investmenls                                      (4,192)            (48,374)
   Depreciation, Amortization, and Loss on Disposil-ion of Assets                        l,731               1,051
       Total Adjustments                                                             (872,986)           (920,640)
Net Cash Provided/(Used) by Operating Activities                                      (875,031)          (925,095)

CASH FLOWS FROM INVESTING ACTIVITIES
Purchase of ProperLy and Equipment                                                      (2,667)
Sa les of Secu ri ties                                                               1,093,279          5,731,950
Purchase of- Securities                                                             (l,106,881 )        (5,701,817)
Net Cash ProvidedJ(Vsed) in Investing Activities                                       (16,269)            30,133
CASH FLOWS FROM FINANONG ACTIVITIES
A ppropriations Received, Ne t of Trusl                                               87] ,558            884,547
Rescissions and Cancellations                                                          (43,774)           (30,907)
Net Cash Provided by Financing Activities                                             827,784             853,640

Net Increase/(Decrease) in Fund Balance with Treasury                                  (63,516)           (41,322)


Fund Balance with Treasury, Beginning                                                 886,505             927,827

Fund Balance with Treasury, Ending                                              $     822,989       $     886,505

               Tilt' I1ccomprll1yil1g 110ft's an' an integral pnrt oj tllest> jinrmcial statf/nerds.
                     Corporation for National and Community Service
                      Combined Statements of Budgetary Resources
                            For the Years Ended September 30
                                               (do lln r ill th oll   nl/fl ~)




BUDGETARY RESOURCES                                                                               2008                            2007
Unobligated balance, brought ronvard, October 'I                                          $          177,320              $         185,878
Recoveries of prior yeaJ:" unpaid obligations                                                         40,444                         57,330
                                                                                                    '2! 7,764                       243,208
Budget authority:
  Appropriation                                                                                   1,027,007                       1,021,546
  Spend ing authority from offsetting collections:
      Collected                                                                                         9,070                         7,302
      Change in receivables from Federal sources                                                          (491 )
  Change in unfilled customer orders:
      Advance received                                                                                     374
      Without ()dvance from Federal sources                                                                 65
    Total budget all thorily                                                                      1,036,025                       1,028,848


Permanently not available                                                                            (43,843)                       (30,907)
    Total budgetary resources                                                             $       1,209,946               $      1,241,149




STATUS OF BUDGETARY RESOURCES
Obliga tions incu rred (Not(' 16)                                                                 1,064,885                      1,063,829
Unobligated balance:
 Apportioned                                                                                           2,927
Unobligated balance not available                                                                    142,134                       "177,320
    Total status of budgetary       resou~es                                              $       1,209,946               $      1,241,149


                                                                                                                              (Colltilllled)




             TIlt' accompanying 11Ott'S lire an illte ml l'nrt of                tilt':;/:' ji' nnn cilll ...;tfltn lll'n ts.
                         Corporation for National and Community Service
                          Combined Statements of Budgetary Resources
                                For the Years Ended September 30
                                                  (doll"rs   III   tIIOIIS,lIIds)



(COll til/lied)
                                                                                         2008                2007
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
  Unpaid obligations, brought forward, October 1                                    $   1,165718        $   1,185,078
  Uncollected cLlstomer payments hom Federal sources,
   brought forward, October 1                                                               ( 1,694)            (3,455)
      Tolal unpaid obligated bcllilI1ce, net                                            1,164,024            !,I 81 ,623


Obllgahons incurred, nel                                                                1,064,885           1,063,829
Gross outlays                                                                           (1,039,557)         (1,025,858 )
Recoveries of prior year unpaid obligations, actual                                        (40,444)            (57,330)
Change in uncollected customer payments from Federal sources                                   427               1,760
      Total unpaid obligated balance, net, end of period                                1,149,335           1,164,024
Obligated balance, net, end of period :
  Unpaid obligations                                                                    l.150,60S           1,165.718
  Uncollected customer payments from Federal sources                                        (1,270)            ( 1,694)
      Total unpaid obligated balance, net, end of period                                1,149,335           1,164,024


NET OUTLAYS
C ross outlays                                                                           1,039,557          1,025,858
Offsetting collections                                                                     (9,444)              (9,062)
Distributed offsetting receipts                                                          (140,4,-110)        ( 119,014)
       Net outlays                                                                  $     889,663       $     897,782




                  Tilt' accompnnying notes art' 1711 illtegml part oj fiIesefillnllcil1! sfntt'mellfs.
NOTES TO THE FINANCfAL STATEMENTS
NOTE 1- SUMMARY OF SIGNIFICANT ACCOLLNTI!VG POLICIES
A,   Reporting Entity
The Corporation for National and Community Service (Corporation) was cre ated by the
N a ti on a l dnd Community Service Trust Act o j 1993 (Pu blic LOl W 103-82), nle Corp oration's
miSSion IS to improve lives, st rengthen communities, a nd foster civic e nga gement through
service and volunteering To meet its mission, the Corporation provides grants and olher
assistance to 51'a tes, local municipalities, and not-for-profil organizations to help
communities meet crit'lcal challenges in the areas of education, public safety, human need s,
and the enVHonment Ihrollgh volun teer service. The Corporation's major progra ms ,ue:
SENIOR CORPS, The Senior Corps o ffers a network of programs lhallap (he rich
experience, sk ills a nd talents of older citizens to meet co m nLUnity Chall e nges . Senior Corps
comprises the Retired and Semor Volunteer Program, the Foster Grandparent P rogram,
and the Sen.ior Companion Programs,
AMERICORPS. AmeriCorps provides opportwlities for Americans to make an ongoing,
inte ns iv e commitme nt to service through the following programs:
     o   Slflte, NntlOrwl, Triut'5, (Ind TerritOflt's, (State/Nalional) offers grants supporting   3
         broad range of local service programs that engage thousands o( Americans in
         intensive servIce to meet critical communiLy needs.
     o   Volllnteers III SeroiC{' /'0 All/ellen (VISTA) helps community organizations and public
         agencies create and expand progra ms that build capacity and ultimately bring low-
         income i,ndividuJls and communities out of poverty,
     o   Natio nal Civ ilian CO llllllw/ity Corps (NCCC) strengthens communities wlu le
         developing leaders throu.gh direc t, team-based nalional and communiLy service.
LEARN AND SERVE AMERICA. Learn and Serve America supports programs in schools,
colleges, and community-based organizations thaL link community service to edLtca(ion<l1
objectives.
In addition, the Corporation administers the NationClI Service Trust (the Trust), whose
purpose is to provide education awcnds for volunteers under AmeriCorps' State, N a tional,
Tribes and Territories; NCCC; and VISTA programs.

B.   Basis of Accounting and Presentation
T he a ccompctnyi ng fin a ncial statements report the financial posilion, results oC opera tion s,
ca sh flows, and budg etary l'esources of the Corporation, as required by the Government
C orpofZltion Control Act (31 USC 9106) and Exec utive Order l333 1 ("National Commu ni ty
Service Programs").
The accompanying Consolidated Statements of FinClIlcia l Position, Opera lions and Change s
in Net Posibon, and Cash Flows have been prepared from the books and records of the
Corpol'a l'i on in accordance With account'lng prinCiples generally accepted 111 the United
S tdtes o f America (G A AP) as applicable to Fedel'"l gt)\lornme ntal co rporations a nd include
Lite Cor poralion's activities related Lo providing ~rants and other assistance ('0 eligible
s lates, loca l gove rnme n ts, and not-far-profit organizations as w e ll as educati o n ,1wards to
eligibl(';! na t'i o na.l servi ce par ticipants.
T he accompany ing Combi neu Stateme nts of BudgctClry ResolL1'ces (SBR) have been p repared from the
books a nd records of the Corporation in aCCOrdMl.(e with the f(lrm and content requi rements
~rt:1ining to it in th e Offic f Managemen t and Budget (OM B) CirculM No. /\-1 36, "Finnncial
R porting Requ ireme nts" and G A AP. CAAP, as it re lates to the SBR, is prescribed by t.he Federa l
Accounting S ta ndards Ad visory Board, which is the oFficial acco unting st-andcll'd-se tting body for the
Federal governme nt.
The Corporation 's i'lccounting structure reflects both accrual and budgetary c1(counting transactiollS.
UndeJ' the accrual method of accounting, revenu es are recognjzed when eMned and ex penses are
(ecognized when i.ncurred, without regard to the actual coHection or payment of cash. Federal
budge tary accoun ting recogn izes the obligati o n oi a ppropriat i ns and other funds upon the
establishment of il properly documented legal liabjJity, which, in many cases, is different from the
recording of an accrual-based transAction. The recognition of budgetiITY aCCOl! nting h'ansactions is
essential for compliance with legClI controls over the use of Federal funds.

C.   Budgets and Budgetary Accounting
The activities of the Co rporation are primarily funded through the annual Departments of Llbar,
Health and Human Services, Education and Related Agencies Appropriation Act. For the period
(overed by these statements, the Corporation was funded by the following trust and C1ppropdrtted
funds:

Trust Funds
     c·   Natio nal Se rvice T rusl
     o    Gifts and Contributions

I\PP ropriated Funds
     o    Domestic Volunteer Service Programs, Operating Expe nses, a FY 2007 one-year fund
     o    National and Community Service Programs, Operati.ng Expenses, a PY 2007 two-year fund
     o    Operating Expe nses, a FY 2008 one-year fund (with the exception that funding for operation
          of the National Civilian Conununity Corps was available for two years)
     Q    Salaries and Expenses, a one-yeM fund in both FY 2007 and 2008
     o    Offic of Inspector General, a one-year fund in both FY 2007 (\nd 2008
     Q    VISTA Advance Payment Revolving Fund, a no-year funcl.
The Vista Advance Payment Revolving Fund was established on February 15, 2007, by Public Law
110-5. It provides budgetary resources against which the Corporation advance ... (unds for VISTA cost-
share agreements. OMS did not establish the VISTA Advance Payment Revolving Fw'\d as a
revolving fund, but, as noted above, as a permanent, indefinite appropriated fund.

D. Fund Balance with Treasury
Fund B<llaoce with Treasury (FBWT) represents the Corporation 's cash accounls with the Department
of the Treasury (the Treilsu ry) The Treasury processes cash receipts and d isbursements on behalf of
the Corpora.tion and the Corporation's accou nting records are reconciled with those of the Treasury
on a regu lilr basis. The Corporation's FBWT includes all of its appJ' priated .'lnd !Tust fund ....
Funds maintained in the National Service T rust are restricted to specific pu.rposes, such as paying
service awards ea rned by eligible pfl lticipant-s, and are not available [or use in the curren t operations
of the Corporation. The majority o f the funds received from individuals and organizations in the
(onn of gifts are resh'icted for pal'ticu lar lI ses, such as serv ice projects.
E.   Investments and Related Receivables
By law, the Corporation may invest the funds of the National Service T rust in interest-
bearing Treasur}' secur ities guarnllteed by the United States as to principal and inte rest.
These Treasu ry seC- UTities are referred to as "market-based ". since th e y minor actu ill
Treasury securities sold on the ope n market. T hey consist of Treasury notes, bonds, bills Clnd
one-d a y Ct:: rti fica les.
Since they are expected to be> held-to-maturity, the Corporation's investments are valued at
cost nnd adjusted for the amortization of premiums and discounts. The premiums and
diSCOU.nts are recognized as adjustments to interest income, using the effecl"ive interes t
meth.od. Interest receivable represents amounts earned, bul not received on investments he!d
at year-end. Prepaid interest is the amount of interest earned on a security since the date of
its last interest payment up to the date the security is purchased by the Corporation. Such.
interest, if any, at year-end is included in the interest receivable balance.

F.   Advances to Others
The CorpofCltion advances funds to non-federal entities, primarily in response to grantee
drawdown requests, to facilitate their authorized service activities. The cash payments to
grantees, in excess of amounts appropriately expended under the terms of the grant
agreements, are accounted for as advances. At the end of the fi scal year, the total ilmount
advanced to grantees is compared with the total Corporation-funded amount of grant
expenses prope rly incurred by U1e grantees. Grantee expenses are determined from reports
submitted by the grantees. For those grantees with advances exceeding expenses, the
aggregate diHerence is reported as the advance c1Ccount bal'lllce.

G. Accounts Receivable
Accounts receivable represents amounts due to the Corporation primarily under Federal and
non-Federal reimbursable agreements, grantee audit resolution determinations, and
outstanding travel advances due from employees. An allowance fol' doubtful accounts is
established for reporting purposes based on past experience.

H. Property and Equipment
Effective July 1,2007, the Corporation instituted a prospective iJ1cre<lse in the capitalization
threshold for capitalized property and equipment from $10 thousand to $50 thouSlInd. Thus,
an property and equ.ipment received and accepted by the Corporation on or afte r July 1,
2007, is subject to the $50 thousand capitalization threshold. Property and equipment with
an estimated useful life that extends beyond the yea r of acquisition is capitalized at historical
cost and is depreci<lted (or illllortized) on a straight-l ine basis over estimated lIsefullives
ranging from two to 10 years, using the half-year convention. Normal maintencmce ilnd
repair costs on capitalized property and equipment are expens ed when incurred. The
Corporation has entered into lease agreements for copy machines . These leases vary from 3
to 4 year terms and are deemed to be capital leases. The costs o f the copiers have been
recorded as property and equipment.

I.   Trust Service Award Liabiljty
The Trust Service Award Liability represents unpaid ea.rned, and expected to be eClrned,
education awards and eligible student loan interest forbearance costs, which are expected to
be used. These 3mollllts relate to participants who havE' completed service or are currently
enroll ed in the program <lnd arE' expected to earn an award, base d on the Corporation's
his tor ica I e, pe r ience.
J,   Gran ts Payable
G 'ants are made to nonprofit organiza tions, educational institutions, s tates, m unicipalities,
and other e 'ternal organizations. Grants become budgetary obligations, but not liabilities,
when they are a warded. At the end of each fisc a.l year, the Corpora tion reports the total
amount o f unreimbursed grantee e:-..penses, whic h are properly payable LI ncler the terms of
grant agreements, as grants pa ya.ble.

K.   Accounts Payable
Th.e Corporation records c1S liabilities aU amounts that arE.' likely to be paid as a direct result
of a transaction or event that has already occurred. Accounts payable represents amounts
due to entities for good s a nd services received by the Corporation, but not paid fer at the
end ot the fiscal year.

L    Actuarial FECA Liability
The Federal Employees' Compensation Act (FECA) provides income and medical cost
protection to covered Federal civilian employees, NCCC and V1ST A members injured on
Ule job, employees who have incurred a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or
occupational disease. Claims incurred for benefits for Corporation employees and
members under FECA aTe determined (\nd paid by the Department of Labor (DOL) and
later billed to the Corporation. The Corporil.tion's actuarial liability for workers'
compensation includes costs incurred but unbil1ed as of year-end, as calculated by DOL.
The Corporation reimburses DOL for FECA claims out of current appropriations upon
receipt of a bill from DOL

M. Other Liabilities
Other liabilities include amounts owed but not paid at the end of the fiscal year fm payroll
and benefit:s and VIST A stipends. Also included as other liabilities is the amount of claims
for benefits for Corporation employees under FECA that have been paid by DOL and billed
to the Corporation but have not yet been reimbursed to DOL.

N. Accrued Annual Leave
Annual leave is accrued as a liability based on amounts eamed but not used as of the fiscal
year-end. Each year, the balance in the accrued annual leave account is adjusted to retlect
current year pay rates and Leave balances. Annual Leave is funded from current
appropriations when used. As unused annual leave is .lsed in the future, financing will be
obtained from appropriations current at that time. Sick leave and other types of 110n-
vested Leave are also expensed when used.

O. Advances from Others
Advances from others consist of advances fTom other Federal agencies and the public
related to interagency ilnd cost share agreements into which the Corporation entered to
provide services.

P.   Net Position
Net position is comprised of the Corporation's unexpended approprialions and its
cumulative results of operations. Unexpended approprintions is the balance of
appropriated authority granted to the Corporation against ,,,,hlch no outlays have been
made. Cumulative results of operations represent the net differences between revenues and
expenses From t.he Il1ception of the Corporation.
Q. Revenues
Appropriated Capital Used
The Corporalion recogn izes its use of appropr iated capital as revenue at the time it is
expended to pety program aT adminis trative expe nses. Appropri a ti o ns expended for
property and equipment are recognized as used when the property is purchased.
Appropriated capital not expended within five fiscal yea ts afte r it became available for
obligation is cancelled. Unpaid obligations recorded against cancelled appropriated capital
are paid from currently avaiJable appropriated funds as payments become due .
A ppropria tions recei ved for the Corporation's Trust are recognized as revenue when
received in the Trust Fund. Trust appropriations do not expire w ith the passage of time
and are retained by the Corporation in the Trust until used for eligible education service
award. purposes.
IHterest
Interest income is recognized when earned. Treasury notes and bonds pay interest semi-
aru1Ually. base d o n the stated rate of interest. lnterest on Treasury bills is paid at marurity.
Interest income is adjusted by amOTtization of premiums and discounts using the effective
interest method .
Revenue from Services Provided
The Corporation also receives income from reimbursable service agreements tllClt is
recorded as reve.nue from services provided. Revenue from services provid e d is recognized
when earned, i.e ., goods have been delivered or services rendered.
Otlrer   Rev~lIl1e

Other revenue consists of gi fts a.nd donations for the support of Corporation operations or
service projects fl'om indivi d uals and organizations.

R.   Retirement Benefits
The Corporation ' s employees participate in either the Civil Service Retirement System
(CSRS) or the Federal Employees Retirement System (FERS). FERS was established by the
enactment of Public Law 99-335. Pursuant to this Ia.w, FERS and Social Security
automatically cover most employees hired after December 31, 1983. Employees hired prior
to January 1, 1984, elected to join FERS and Social Security 01' remained in the CSRS.
For employees covered by CSRS, the Corporation contributes 7.0 percent of their basic pay .
For those employees cClvered by FERS, the Corporation contributes 11.2 percent of their
gross pay low<uds re tirement. Employees ilTe allowed to participClte i(l the Federa.l Th.rift
Savings Plan (TSP) . For employees under FERS, the Corporation conh-ibutes an automatic
one percent of basic pay to TSP and matches employee contributions up to an additional 4
percent of P(lY, for a maximum Corporation contribution amounting to 5 percent of pay.
Employees under CSRS may participate in the TSP. but wiH not receive either the
Corporation's automatic or matching contributions.
The Corpora bon made retirement contri btl hans of $473 and $506 thousanrl to the CSRS.
anci $8.2 and $8.1 million to FERS and TSP in fiscal years 2008 and 2007, respectively.

S.   Income T(1)(es
As a Federal entity, the Corporation is exempt from all income taxes imposed by any
governing body, whetfler it be a Federal, StClte. commonwealth, local or foreign
governme.nt.
T . Use of Estimates
The preparation of fin.ancial stateme nts in nccordance with GAAP requi res management to
make ceria in estimates. These estima tes affect th e reported amounts oJ a sets Cl nd Habilities CIt
the date of th e [manci"I statem e nts and the re ported amounts of revenues and expenses during
"he reporting period . Actual results could differ from these estimates.
U. Reclassification
Certain prior year amounts have been reclassified to conform to cu.rrent year presentation .


NOTE 2 - FUND BALANCE WITH TREASURY
u.s. Government cash is accounted for on an overall consolidated basis by the U.S. Department
of Treasury . The Fund Balance with Treasury line on the Statement of Financi,d Pos ition
consists of the following:
    •   Appropriated Funds - Appropriated funds (Ire recei ved through congressional
        appropriations to prov ide financing sources for the Corporation"s programs on an
        annual, multi-y ear, and no-year basis.

    •   Trust funds - Trust Funds are accounts designated by law for receipts earmarked for
        specific purposes a nd for the expendihlre of these receipts. E<unds from the
        Corporation ·s Trust Fund may be expended for the purpose of providing an education
        award or student loan interest forbearance payment. Trust Fund payments are m a de
        directly to a qualified institution (college, university, or other a pproved educational
        institution, or a lending institution holdi.ng an e xisting student loan) as designated by
        the participant. The Trust also pays awards under the President·s Freedom
        Scholarship Program .

    •   Gift Funds -Gift Funds are funds received from individuals and organizations as
        donations in furtherance of the pllrposes of the national serv ice laws.


          Fund Balance with Treasury a of September 30, 2008
                        (dolJ(f~ ill tllOlJ~(f"ds)

 Type                         Unrestricted    Restricted                  Total
Appropriated Funds                821,954 $              -            $    821,954
Trust FlU1ds                                $         227                         227
G ift Funds                               -           808                         808
Total                         $      821,954     $         1,035      !    822,989


          Fund Balance with Treasury as of September 30,2007
                           (,lol/ars ill tlwflsallds)
 Tvpe                         Unrestricted           Restricted           Total
Appropria ted Funds           $   885,823        $                -   $    885,823
Trust Funds                                  -               148                  148
Gift Funds                                   -               534                  534
Total                         $      885,823     $           682 $         886,505
NOTE 3 - TRUST INVESTMENTS AND RELATED RECEIVABLES
The composition of Trust Investments and Rel<tted Receivables at September 30 is as follows:


                     Trust Investments and Related Receivables as of S ptember 30
                                             (dollal's ill tltollsl1l1ds)
                                                                                    2008               2007
Investments, Carrying Valu e                                                    $     479,634      $    461,842
Investment and Interest Receivable                                                         4,246          3,5 49
Total                                                                           $     483,880      $    465,391



              Amortized Cost and Fair Value of Investment Securities
                            as of September 30, 2008
                                  (dollars ill tlJoflstlJlds)
                    Amortized            Unrealized           Unrealized             Fair
 Securities           Cost                 Gains               (Losses)             Value
Notes           $       399,353      $          6,609     $                 -   $     405,962
Bms                      80,281                    108                      -          80,389
Bonds                           -                     -                     -                  -
Total           $       479,634 $               6,717 $                     -   $     486,351



              Amortized Cost and Fair Value of Investment Securities
                            as of September 30, 2007
                                  (dolltu·s in tlloflsQllds)
                    Amortized            Unrealized           Unrealized             Fair
 Securities           Cost                 Gains               (Losses)             Value
Notes           $       427,428     $           2,307     $                 -   $     429,735
Bills                    34,414                       1                     -          34,415
Bonds                           -                     -                     -                  -
Total           $       461,842     $           2,308     $                 -   $     464,150


At September 30, 2008, the notes held at year-end had an interest rate range of 3.0% to 6.0% and
<In outstanding maturity period of ;tpproximately one day to {h,e yE'<lrs. The bills held ~t ye"r-
end had an interest rate range of 2.99% to 4.79% and were all due to mature within 18 days.
The par values of these bills range from $1.0 million to $20.0 million.

As required by the Strengthen AmeriCorps Program Act, beginning in fiscal 2003, the
Corporation bas set aside in reserve a portion of the funds in the Trust for use in the event that
its estimates used to calcula te obligational amounts for education awards prove to be too low.
As of Septe mber 30, 2008, $46.7 million of the Corpora tion'S investment dccoun t has been set
aside for this reser ve.
NOTE 3 - TRUST INVESTMENTS AND RELATED RECEIVABLES - CONTINUED


In veshnents held at September 30 ffiahtre according to the following schedule :


                         Maturation of Securities Held as of September 30
                                            (dollars ill tlzOlISalJds)
                                                            2008                                  2007
                                                   AmoTtized                             Amortized
Held-to-Maturity Securities                          Cost       Fair. Value                Cost       Fai r Value
Due in 1 year or less                             $   357,731 $      359,913            $   245,945 $      246,090
Due after 1 year up to 5 years                           121,903           126,438            2-15,897       2] 8,060
Total                                             $      4'79,634 $        486,,351     $     461,842    $   464,150



NOTE 4 - ACCOUNTS RECEIVABLE, NET


                Accounts Receiyable as of September 30
                         (dollars   ;11 tllOllsll1lds)
                                                         2008              2007
Accotmts receivable                               $        2,925      $      3,726
Less: allowance for loss on receivables                         309               479
Accounts Receivable, Net                          $        2,616      $      3,247



NOTE 5 - PROPERTY AND EQUIPMENT, NET


        General Property and Equipment as of September 30, 2008
                         (dollar in tlzo/lstrt,ds)


                                                                         Less:
                              Service Life                            Accumulated           Net Book
        Major Class             (Years)                  Cost         DepTeciation           Value
Equipment                        3 -to             $        3.084      $      1,541     $        1,543
Capilalleases                     3-5                           416               291              125
ADP software                          2                     8,774             7,399              1,375

Total                                              $       12,274 $           9,231 $            3,043
NOTE 5 - PROPERTY M'D EQUIPMENT, NET - CONTINUED


            General Propedy and Bquipment as of September 30,2007
                                 (dollm's ;11   tlJOllSRflds)
                                                               Less:
                     Service Li fe                          Accumulated
   Major Class         (Years)              G:ost           Dept:eciation Net Book Value
Equipment               3 - 10       $         2,917       $        1,326 $        1,591
CapitalleLlses           3-5                        416                  208              208
ADP software               2                      6,274              5,966                308

Total                                $            9,6'07   $         7,500     $      2,107


NOTE 6 - SERVICE AWARD LIABILITY -NATIONAL SERVICE TRUST
Individuals who successfully complete terms of service in AmeriCorps programs earn
education awards, which can be llsed to make payments on qualified student loans or for
educational expenses at qualified educational institutions. The awards, which are avaiIable for
use for a period of up to seven years after the benefit has been earned, are paid from the
National Service Trust. The Trust also pays forbearance interest on qualified student loans
during the period members perform community service> as well as awards Lmder the
President's Freedom Scholarship Program. The award liability components related to education
awards and interest forbearance have been adjusted, based on historical experience, to reflect
the fact that some eligible participants may not use these benefits. The Service Award Liability
was composed of the following as of September 30:


                               Service A ward Liability as of September 30
                                          (dollar in thou       Rtlds)
                                                                                   2008             2007
 Educat ion awards                                                             $   1,335,254    $   1,179,887
Interest forbearance                                                                 42,707           37,264
Presidenl"'s Freedom Scholarship Program                                             22,527           22,527
Total estimated Service Award Liability                                            1,400,488        1,239,678
 Less: cumulative awards paid                                                      \,097,121         959,081
Total                                                                          $    303,367     $    280,597


The net Service Award Lia bility as of September 30, 2008, increased by approximately $22.8 million
from tlte lje! Service AWard Liability as of September 30,2007. This change "'VaS largely due La new
member enrollments and an increase in the number of members still serving during the yeiH. Past
Corporation appropriations made amounts from the Trust available for $1,000 scholarsh ips for high
school students known as Presidential Freedom Scholarships. To fund each scholarship, a local
community or corporate source matched the $500 portion of the scholarship provided by the
Corporation. The program was discontinued in fiscal 2007; however, because students have up to
seven years to use the scholarship, some payments will continue to be made over the next several years.
NOTE 7 -OPERA TING LEASES


The Corporation leases office space tluough the General Services Administration (GSA). GSA
charges the Corporation a Standard Level Users Charge that approximates commercial rental
rates for similar properties, NCCC also leases housing facilitie s for its campuses. Additionally,
the Corporation leases motor vehicles on an annual basis through GSA under an [nteragency
Fleet Management Service agreement for the National Civilian Community Corps.
Commitments of the Corporation for future rental payments under operating leases at
September 30 are as follows:

                     Estimated Operating Lease Commitments as of September 30
                                                   (do/T",'s ;11 thousallds)
                                      2008                                                       2007
  Fiscal    Facilities                                                   Facilities
   Year      Space         Vehicles          Other          Total         Space   Vehicles              Other        Total
   2008        $       -       $       -       $       -             -      8,155      581                  124       8,860
   2009            8,351            543              L39        9,033          8,395           598              95    9,088
   2010            8,602            562              122        9,286          8,642           615              89    9,346
   2011            8,860            581              126        9,567          8,896           633              92    9,621
   2012            9,125            602              122        9,849          9/158           652              96    9,906
   2013            9,399            623              114       10,136                 -           -              -        -
Total       $ 44,337       $       2,91]   $         623   $ 47,871      $ 43,246         $   3,079   $     496      46,82]
NOTE 8 - ACTIlARIAL FECA LIABILITY
The Corporation's aclu a rialliability for future workers' compensation benefits under FECA
was $11,638 million and $11.888 million as of September 30, 2008 and 2007, respectively. The
amount includes the expected liab ility for death, disabilily, medical, and miscellaneous costs
for approved compensation cases. The actuarial liability is determined using a method that
utilizes historical benefit payment patterns related to a specifk incurred period to predicl the
ultimate payments related 10 that period. Consistent with past practice, these projected annual
benefit payments have been discounted to present value using the Office of Management and
Budgel's economic assumptions for 10-year Treasury notes and bonds.




NOTE 9 - NET POSITION
Nel position consists of unexpended appropriations and cumulal·ive results of operations.
Component balances arE' separately mainlained for the Gift Fund, Trust Fund and
Appropriated Funds.



                          Net Position by Fund Balance Components
                                    s of September 30. 2008

                                     (dtlllur, In (IIIII/salld,,)
                                                                                 Appropriated
                                        Cirt Fund               Trust Fund           Funds             Total
Unexpended appropriations           $                   -     $              -   $   769,016       $   769,016
Cumulative results of operations                   801                180,771          (8.268)         173,304
Total Net Position                  $              801        $       180.771    $   760:748       $   942:320




                            ct Position by Fund Balance Component
                                    s of September 30, 2007

                                     (dollars I" 'fIrJII. tlllIl,~)
                                                                                 Appropriated
                                        Cirt Fund              Trust Fund            Funds             Total
Total unexpended appropriat ions    $                   -     $              -   $   82 8,597      $   828,597
Cumulative res ults of operations                  570                )84,949         (l0, l 70)        175,349
Total Net Position                  $              570        $       184.949    $   818.427       $ 1,003,946
r,WTE10 -APPROPRIATIONS RECEIVED BYlliENATIONAL SERVICE TRUST
For fiscal year 2008 the National Selvice Trust received $122.530 million wlder the
Consolidated Appropriations Act, 2008 (public Law 110-161). For fiscal year 2007 the
National Service Trust received $117.720 million under the Rev ised Continuin g
Appropriations Resolution, 2007 (public l.a w 110-5). The Acts also authorized the
Corporation to h'ans£er additional amounts from subtitle C program funds to the ~ational
Service Trust if necessary to SUppOlt the activities of national service participants. The
Corporation transferred $16.246 million to the National Service Fund under this provision in
fiscal 2008, bringing total appropriations received by the Trust in 2008 to $138 .785 milljon; no
funds were transferred in fiscal 2007.
NOTE 11 - EXPENSES
Using an appropriate cost accounting methodology, the Corporation's expenses have been
allocated among its major programs, at the sub-program leveL Costs for each sub-program
are reported on separately :

AmcriCorps includes the State, National, Tribes, lind Territories (StateiNational); National
Civilian Community Corps (NCCC)i and Volunteers In Seruice To America (VIST A) programs.
The StateJNational sub-program includes grant expenses, as well as direct and allocated
personnel and administrative costs including AmeriCorps recruitment nnd Trust
operations . The NCCC sub-program includes direct and allocated personnel and
adm.inistrative costs including AmeriCorps recruitment and Trust operatiOns . The VISTA
sub-program includes grant expenses, as well as direct and aUocated personnel and
admi.nistrative costs i.ncluding AmeriCorps recruitment and Trust operations .

The National Senior Service Corps (NSSC) includes the Foster Grandparent Progmm (PCP);
Senior Companion Program (SCP); and the Retired aud Senior VOIUtlteer Progralll (RSVP). The
NSSC ['esponsibility segment includes grant expenses, as well as direct and allocated
personnel and adrrdnistrative costs for RSVP, FGP, and SCP.

Learn and Serve America includes grant expenses, as well as direct and allocated personnel
and administrative costs, (or the Learn and Serve America Program. the President's Student
Service Challenge. and National Service Leader Scll00ls. The President's Freedom
Scholarships are included in the National Service Award expense component.

Other Program Costs

National Service A 7D!l r d Expense - the National Service Award expense component consists of
the Corporation·s estimated expense for education awards based on the increase in its
service award liability during the year, interest forbearance costs on qualified student loans
during the period members perform community service, as weU as disbursements for the
P(esident's Freedom Scholarship Program (see Note 12). No indirect costs have been
allocated to the National Service Award expense component.
Pflss-througll Gmnts - the Corporation has reimbursable agreements with state agencies
whereby the Corporation awards and administers grants to a list of grantees selected and
funded by the State . No indirect costs have been allocated to these pass-tIu-ough grants.

The Office of Inspector General (OIG) receives a separate appropriation. No indjrect costs
have been allocated to the OIG.
NOTE 11 - EXPENSES - CONTINUED



               Components of Grant Funds Expended for the years ended September 30
                                           (rio liars ill   thtllfScIIlds)

                                                                             2008                     200'7
Domestic Volunteer Service Act Programs                                         $ 248)85                  $   249,634
National and Community Service Act Programs                                         316,158                   347,085
Pass-through Grants                                                                    163                      2,781
Total Grant Funds Expended                                                     $ 564,706                  $ 599,5DO



          Expenses by Major Responsibility Segment for the yeal's ended September 30
                                           <dollars ill tllOlIsallds)
                                                                             2008                     2007
Ame riCorps
  Stal-e , National, Tribes & Territories (State/ Nation $ 459,584                            $ 461,509
  National Civilian Community Corps (NCCC)                           39,334                      37,188
  Volunteers In Service To America (VrST A)                         131,506                     123,607
    Subtotal                                                                    $ 630,424                 $ 622,304
National Senior Service Corps
  Retired and Senior Volunteer Program (RSVP)                         66,284                     66,286
  Foster Grandparent Program (FGP)                                  119,396                     123,293
  Senior Companion Program (SCP)                                     51,114                   $ 51,249
    Subtotal                                                                        236J94                    240,828
Learn and Serve America                                                             42,436                     59,503
Pass-through Grants                                                                    163                      2,781
Office of Inspector General (O(C)                                                     6,284                     5,634
Total Expenses                                                                 $ 916,101                  $ 931,050
,

                                                                            r,,.-.-"'" T......... ~......_                             1., ..... ,...., .. noffil
,                                                                                                                                      11._.    .1-
                                                                                                                                                                    ~."phl.""'1O.lOOII


                                                                                              .....,.........            ~

                                                                                                                                                   ". .. .....wl~ ... " ••
                                                                                                                                                                    ,              ~                              •
                                                                                                                                                                                                                  , -'.
                                                                                ,,,                                  ,                                                                                                -~
                                                                                                                                                                                                                                                     ,,,
                                                                           ,                                     ,                            '"               ,                   ,
                                                                                                                                                                                                   ""<\L-

                                                                                                                                                                                                                                 ,
    i;;tMlI .nd          R{'ldl~d ~" p{'m; "
    G r~nl h :,nd~ ,,~\f*t~JeJ                                                 278,649        S              ,
                                                                                                                         29,(162          $     iJO,763             lJl,23!            47,329
                                                                                                                                                                                                   •   37"S(})            163              ,       , SOI."
    VISTA ,<..r, NCCC . t'r l'lXls &                bcneril~                        57               5.645               5) ,1)'11
                                                                                                                                                                                                                                                      "'''''
                                                                                                                                                                                                                             ,                ,

    Y .1"'.   l "~   ,",w",oJ   tx pt'1 ~t'                                    141,b:B               J,b:ll              L" J ilJ                                                             ,                                            ,
                                                                                                                                                                                                                                                   _I ~.~~
    Total Grant and Related Expense                                            420,329               9,.%                97;)h                  60,763              111,231            47,329          ~7, 509            11,3                       7~~'

    A. dm in is trative Expense
    f, ,,:!<·,...I,"r pioyee "'J hnt"'i eX ~ncflts                              16,339              \ 3,,637             21,994                   3.104                 5.677           2.415           3,4~,~                       j, " ' ~         t'i)..l~1
    Tran-i ," Ir;'J\~pg':~I I\'n                                                    %7               -,,,7)..\            4,692                       ''1                 lUl               86            >0 8                          13'           ll\n1'l
    Rent, (lllnmuruc:,n i",,,, &: 'L l;li t.~,;                                  3. 716              1.459                  <88                       m                   329              353            ~ 63               ,         ; 60            9,;\21
                                    &                                                                                                                                                                                        ,

                                                                                                                                                                                                                                                       "'"~"
,   :) IC1iI'oIIm., ~lvs",              I"' J1 U~ l l un                          I ,M9                91'                     954                    307                 553              137            715
    PMnllg It flo'pr'>I'u OlIm
                                                                                       "                33                       77
                                                                                                                                                      "                     3l               l3             5                ,


    ()t ~iW;·.,- I(I'" lm d 6~                                                    5,589              7,121                4,i:Q2                  1.31 ]                  523              ~32            ::92                       1,009            ~'i'f
    S\lpt"il~ & mdk n aLs                                                             6lS             I ,~38
                                                                                                                               '"18'                 63                   11 7              50
                                                                                                                                                                                                           "
                                                                                                                                                                                                                             ,
                                                                                                                                                                                                                                         86            }, 17;;

    ,.......
    D""" t"I.witln. 1Imt.",u" IH.!l', I(",~ Uri dL~posillon pi ",,-;"'1,              9'0                  l3                                       lJ4                   24(>             1()4            ~3                                          1,731




                                                                                                                                                        .                                                                                                    (8"
                                                                                      (51))                (1)                   (9)                   IV                 (12)               (5)           i4!               ,                ,


    "t(JI.d Ad'lIl.l~r.lol h.. bDII~'
    Tnt" hpo'1 ...... to, T'l'P
                                                                                ".m
                                                                           • ' ' '.514 •           ..... • """
                                                                                                   "'$38
                                                                                                                     m. ...
                                                                                                                                                  .5.5lt

                                                                                                                                         • ..." • t
                                                                                                                                                                        &,\65
                                                                                                                                                                     IIl,lIIt!
                                                                                                                                                                                   •
                                                                                                                                                                                        3-.7S.J
                                                                                                                                                                                       ,i,1I1      • "'   ...
                                                                                                                                                                                                        ~U17


                                                                                                                                                                                                                  • '" , "'"
                                                                                                                                                                                                                             ,



                                                                                                                                                                                                                         .".. • -!:..c.
                                                                                                                                                                                                                                                     m~

                                                                                                                                                                                                                                                             lCl1




                                                                                              ~        ....               .... _w
                                                                            bpf'Mrlh Typl'.moI SUbpiellCf1MIi tvr lhr ~Jlt I'ndftl wrtf'IIIMr:lll, 2001

                                                                                                                                                  .._          ....._-xn .... j."'e                               ,,-.,   ....
                                                                                                     ,                     ,                                        ,                                                                                 •
    Granl ~ l1d Rel.lt.-d Expense
    G i.",1 JllndS ,~;:d                                                   ,   2'15 ,tjJ5     ,              ,   ,       27,2(-'/\       ,      60,933         S 114,075           ,   47..358     S   :;I P'N    S   2,781      $                 , m ...  'i:t'



                                                                                                                                                      ..
    VJST,\ &. :'\CCC slIpends & beneflts                                                 ,
                                                                                                    ttJ;OJ               57,2a3                            ,                  ,                ,


                                                                                                                                                                                                                                                     "'*"
                                                                                                                                                                                                                                               ,

                                t._pen;e                                   ~!.i1..Il!-..             ~,                  H,l ~                             ,                  ,                ,
                                                                                                                                                                                                        l,tiD

                                                                                                                                                "" ,
    X 1 V'C~' ~ W~l\1                                                                                                                                                                                                                                141.J.1'
    Total       Gr~nl      Jnd Related Expen5 e                                -I~~ ,li77           U,m                  98,681                                     114,CJ?5           4'"'58          53.617         2,781                          511,] qQ

    A dlJlin;s traJjve bpe 1\.5e
    Fed e)~l c.~"r" 'fce 5~ld l;'.$ & bene hts                                  22,459               9,823                9,949                   2,962                 5,567           2,303           3/:h7                        2,9'J9           ~,1l'f
    Tr,l\ ('1 '" ) '~tlJljon
    R" L, I, rum mu.nir.iltIt:In~, & Ht ili! ies
                                                                                  1,.'43
                                                                                  4,21)2
                                                                                                     ,"iJ
                                                                                                     2,879
                                                                                                                          4,475
                                                                                                                               %7
                                                                                                                                                      '61
                                                                                                                                                      510
                                                                                                                                                                          289
                                                                                                                                                                          '5<
                                                                                                                                                                                           \23            180
                                                                                                                                                                                                          <D5
                                                                                                                                                                                                                             ,
                                                                                                                                                                                                                                        '"            1O,R33
                                                                                                                                                                                           396
                                                                                                                                                                                                                                        '"'           In)Oj
                                                                                                                                                                                                                             ,


    l'n~'"r.im .. rolI Y'i" & ".,. ,\lIJ ,'I;Vfl                                                        775                    775                    2~;                 >56                             ;";;1              ,
                                                                                      853                                                                                                  '90                                                         "~ ti:~.
                                                                                                                                                                                                                                                            '.'
    Pr; "tI~ & rtpl Qd uc!.ion                                                         94                112                IO!                        11                    19              8                9                            I                 3.\)
    (jj fn '"C" ICes Un,;             (:~p".J1SeS                                 8,477               'hb~                                        1.299                 J ,h.!:)           741
                                                                                                                                                                                                                                                      ""'"
                                                                                                                          8,191                                                                           \ILl                       2,iJi' 1
    S! 'p rll~" m.lI('liat~                                                                                                                                                                 53                               .           <;
                                                                                                        983                    349                    69                  130
                                                                                                                                                                                                           "                                               1 ,~1
                                                                                      J{l7
    o..'PntO.lhO,1, ;>..nol'I LlatlOfl, k'" on dbposition of a s,;et~                 ;8,                  1O                    99                    80                 '5ll              62             69                ,
                                                                                                                                                                                                                                                           ].Lt" J
                                                                                                                                                                                                                                                            1m

                                                                                                        ..
    tl Jd ~i.ob l                                                                                           2                    20
                                                                                      11O                                                              16                   30              12
                                                                                                                                                                                                           "
    Total .\dlll inj,tr.lli\'f O:pf.'!W'
     I flul I        .p~r.se      '" hpL!
                                                                                "lS. 43J

                                                                           • 40''''           •" •
                                                                                                    2 1..-1 11           R~'"
                                                                                                                     w.0...-
                                                                                                                                          •
                                                                                                                                                  ~ ,3 ~ J

                                                                                                                                                ",,;ib
                                                                                                                                                               •
                                                                                                                                                                        q.~ 18


                                                                                                                                                                    Ill"'"         •
                                                                                                                                                                                        l ,J~t

                                                                                                                                                                                       'il,.!,l'
                                                                                                                                                                                                   •   .....
                                                                                                                                                                                                        L'I~6
                                                                                                                                                                                                                  ,   • :'1"1    ,
                                                                                                                                                                                                                                     ~,()lOI;

                                                                                                                                                                                                                                     . .... •
                                                                                                                                                                                                                                          \)
                                                                                                                                                                                                                                                     1 1b.J'i.1
                                                                                                                                                                                                                                                     <,1]1 U!rU
                                                                                                                                                                                                                                                                     •
NOTE 12 - NATIONAL SER VICE A WARD EXPENSE
Members participating in the Trust programs are eligible to earn a service award to pay for
qualified education expenses. The Trust also pays interest forbearance costs on qualified
student loans during the period members perform community service. The Corporation
estimates the expense for national service awards based on the increase in its cumulative service
award liability during the year (see Note 6). The total service award ljability as of September 30,
2008 and 2007 has been adjusted to reflect the fact that earned awards are not always used.




                  National Service Award Expense for the years ended September 30
                                           (dollill's in thollsQmi.sJ

                                                                             2008              2007
 Estimated education awards                                              $    155,347     $     140,902
 Estimated interest forbearance                                                 5,443             4,786
 President's Freedom Scholarship Program                                            -             1,627
 National Service Award Expense                                          $    160r790     $     147,315


NOTE 13 - CHANGE IN UNEXPENDED APPROPRIATIONS, NET


                        Unexpended Appropriations, Net as of September 30
                                           (dollfiYS ill thOllSflilds)

                                                                             2008              2007
 Unexpended Appropriations, Beginning Balance                            $    828,597     $     872,133

Increases:
Appropriations Received, Net of Trust                                         871,558           884,547


Decreases:
Appropriated Capital Used                                                    (748,580)         (779A56)
Appropriations Transferred to Trust (net of rescissions)                     (122,539)         (117,720)
Program Funds Transferred to Trust                                            (16,246)                 -
Rescissions and Cancellations                                                 (43,774)           (30,907)
Total Decreases                                                              (931,139)         (928,083)


 Change in Unexpended Appropriations                                          (59,581)           (43r536)


Unexpended Appropriations, Ending Balance                                $    769,016     $     828,597
 NOTE 14 - CONTINGENCIES
 The Corporation is a parly to various routine adm.inistrative proceedings, legaJ actions, and
 claims brought by or against it, including threatened or pending litigation involving labor
 relations claims, some of which may ultimately result in settlements or decisions against the
 Corporation. In the opinion of the Corporation's management and legal counsel, there are no
 proceedings, actions, or claims outstanding or threatened that would materially impact the
 financial statements of the Corporation.
 Certain legal matters to which the Corporation is a party may be administered and, in some
 instances, litigated and paid by other Federal agencies. Generally, amounts paid in excess of
 $2.5 thousand for Fede.ral Tort Claims Act settlements or awards pertaining to these litigations
 are funded from a special appropriation called the Treasury Judgment Fund (TJF). Although
 the ultimate disposition of any potential TJF proceedings cannot be determ.ined, management
 does not expect that any liability or expense that might ensue would be material to the
 Corporation's financial statements.

 NOTE 15 - UNDELIVERED ORDERS AT FISCAL YEAR-END
 The Corporation's undelivered orders at September 30,2008 and 2007 were $804,283 tllousand
 and $837,042 tllousand, respectively.

 NOTE 16 - APPORTIONMENT CATEGORIES OF INCURRED OBLIGATIONS
 An apportionment is a distribution by OMB of amounts available for obligation. OMB
 apportions Corporation funds on a quarterly basis. Obligations incurred during fiscals 2008
 and 2007 were:



                                   Consolidated Obligations Incurred
                                           (do lIn rs i n -fJwl/ sands)

1-             ---   Fiscal Year     -           ---                  Di.reet   -       Reimbursable   -   Total   --


     Fiscal 2008                                                                               7,633   $   1,064,885


     Fiscal 2007                                               $      1,059,318     $
~Clifto
~ Gund~rson LLP
             Cert ified Publ ic Accou ntanls 8.: Conwltanl,




                           Independent Auditor's Report on Compliance and Other Matters


To the Inspector General
 Corporation for National and Community Service

We have audited the financial statements of the Corporation for National and Community
Service (Corporation) as of and for the year ended September 30, 2008, and have issued our
report thereon dated November 14, 2008. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended.

The management of the Corporation is responsible for complying with laws and regulations
applicable to the Corporation. As part of obtaining reasonable assurance about whether the
Corporation's financial statements are free of material misstatements, we performed tests of the
Corporation's compliance with certain provisions of laws and regulations, non-compliance with
which could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin 07-04, as amended,
We limited our tests of compliance to those provisions and we did not test compliance with all
laws and regulations applicable to the Corporation. Providing an opinion on compliance with
certain provisions of laws and regulations was not an objective of our audit, and, accordingly,
we do not express such an opinion.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph disclosed no instances of reportable noncompliance or other matters that are
required to be reported under Government Audjfing Standards or OMB Bulletin 07-04, as
amended.

                                                        ********************************


This report is intended solely for the information and use of the management of the Corpora1ion,
the Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should
not be used by anyone other than these specified parties.




Calverton, Maryland
November 14, 2008



'1 itO BeJtSI"il/o Dlive
SlIile 300
Cah'trio/l. M D 20705-3106
tel : 301 -931 · 2050                                                                                   M . /" b • • 0'

13x: 301 -93'I-n l0

www.cliftoncpa.com                                       Offices in n   s~rcs   :JJJd Washingron , DC   lIIII,n.crnatloM,
                               Independent Auditor's Report on Internal Control


To the Inspector General of the
  Corporation for National and Community Service


We have audited the financial statements of the Corporation for National and Community
Service (Corporation) as of and for the year ended September 30, 2008, and have issued our
report thereon dated November 14. 2008. We conducted our audit in accordance with the
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptrollel-
General of the United States; and, Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Feder81 Financial Statements, as amended.

In planning and performing our audit, we considered the Corporation's internal control over
financial reporting by obtaining an understanding of relevant internal controls, determined
whether these internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements and to comply with OMB Bulletin No. 07-04,
as amended, but not for the purpose of expressing an opinion on the effectiveness of internal
control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers' Financial Integrity Act (FMFIA) (31
U.S.C. 3512), such as those controls relevant to ensuring efficient operations. The objective of
our audit was not to provide assurance on internal control. Accordingly, we do not express an
opinion on the effectiveness of the Corporation's internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
intemal control over financial reporting that might be Significant deficiencies Of material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider collectively to be a significant deficiency.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
defiCiency, or combination of control deficiencies, that adversely affects the entity's ability to
initiate, authorize, record, process, or reliably report financial data in accordance with generally
accepted accounting principles such that, there is more than a remote likelihood that a
misstatement of the entity's financial statements that is more than inconsequential will not be
prevented or detected by the entity's internal control. We consider the deficiency described
below to be a Significant deficiency in internal control over financial reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in a more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected by the entity's internal control.



'I f 7 10 Belffl1j/k Drille
S"ile 3DO
C"h.·fr/O /l, MD 20705 -)106
tel: .30 1-9 3 1-~0 50
fa:.;: 301 -931-17 10

www.clifwoc1)a.com                        O ffices in 17 "t:H'es   ~ i'1 d   Was hmgton , DC
Our consideration of internal control over financial reporting was for the limited purpose
described in the second paragraph and would not necessarily identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses. However, we do not
believe that the significant deficiency described below is a material weakness.


Significant Deficiency

CONTINUITY OF OPERATIONS

Losing the capability to process and retrieve information maintained on CNCS's computer
systems can significantly impact CNCS's ability to initiate, authorize, record, process, or report
reliable financial data. The purpose of service continuity controls is to ensure that, when
unexpected events occur, critical operations continue WitilOut inten-uption or are promptly
resumed. To achieve this objective CNCS should have (1) procedures in place to minimize the
risk of unplanned interruptions and (2) a plan to recover critical operations should interruptions
occur. These plans should consider activities performed at CNCS's general support facilities, as
well as the activities performed by users of specific applications. To determine whether the
disaster recovery plans will work as intended, CNCS should establish and periodically test the
capability to perform its functions in disaster simulation exercises. The following weaknesses
noted below describe deficiencies in business continuity controls at CNCS.

1. Application Development and Change Control:

   Significant interface interoperability and unavailability issues in FY 2008 impacted the
   Corporation's ability to operate. Federal Information Processing Standards Publication 199,
   Standards for Security Categorization of Federal Information and Information Systems,
   states that a loss of availability is the disruption of access to or use of information or an
   information system and defines security categories for information systems based on
   potential impact on organizations or individuals should there be a breach of security - that
   is, a loss of confidentiality, integrity (including authenticity and non-repudiation), or
   availability. By authorizing an information system for operation, an organizational official
   accepts responsibility for the security of the system and is accountable for any adverse
   impacts that may occur if the system is breached thereby compromising the confidentiality,
   integrity, or availability of the information being processed, stored, or transmitted. The
   events, noted below, led to the system outages, disrupted system availability and created an
   unstable computer operating environment. In order to stabilize the computer environment,
   management limited system availability to its customers and employees with prescheduled
   blackouts to its mission critical applications. These issues resulted in major system outages
   totaling over 20 days, within a six-month time-span beginning February 2, 2008. The
   financially significant systems impacted included the general ledger system, the central
   database for National Service Trust and participants, and the grants management system.

   In January 2008, there were two major contracted system projects implemented within days
   of each other. Both projects were being managed by separate areas within the Corporation;
   the Project Management Office (PMO) managed one project and the Office of the Chief
   Financial Officer (CFO) managed the other. The PMO managed the implementation of the
   AmeriCorps Poria I (a self-service, on-line AmeriCorps program support system) and the
   CFO managed the implementation of the general ledger system upgrade. These projects
   relied heavily on the functions, support and testing of Information Technology (IT) systems
   and components. Concurrent migration of both projects did not allow adequate time to
   perform testing to identify potential load and interface issues. There was also insufficient
   communication among key stakeholders (PMO, Office of Information Technology (OIT), and
   the CFO) during the phases of implementation for the AmeriCorps Porta!.

   During this same period, OIT was heavily involved in addressing infrastructure support
   shortfalls resulting from the failed contract due to the bankruptcy of its infrastructure support
   contractor. There were two-thirds fewer resources avaHable in OIT to support day-to-day
   operations and functions . This left very limited resources available to focus coordination and
   testing efforts for the system projects to ensure they did not result in any system
   degradation and unavailability issues. Lack of resources, communication, and the timing of
   the migration to the upgraded general ledger system and Portal implementation resulted in
   significant problems including lack of interface interoperability. unavailability and delays in
   processing.

   CNCS had a SWAT team monitoring the system and is now in the process of developing
   and implementing remediation controls . CNCS upgraded the database to be compatible with
   the version used by the third party processor and ensure a more stable operating
   environment. CNCS also had an independent consultant review their controls and make
   recommendations to correct the weaknesses noted.

   Recommendations: We recommend that the Corporation do the following :

      1. Management should establish a central mechanism tor coordinating and managing
         resources required for projects that rely on IT resources.
      2. Management should consider the financial and operational impact when planning
         multiple system projects occurring concurrently (i.e. staffing, system load, system
         testing and system availability).
      3. Management should effectively communicate with key stakeholders who are
         responsible for supporting systems to be sure that there is adequate time and
         resources to test.
      4. For all system projects, Management should follow the documented Corporation
         System Development Life Cycle process.


2. Continuity of Operations Plan and Testing:

   Losing the capability to process and retrieve information maintained electronically can
   significantly affect CNCS's ability to accomplish its mission. OMS Circular A-130 Appendix
   III , Security of Federal Automated Information Resources, states that: "Experience has
   shown that recovery plans that are periodically tested are substantially more viable than
   those that are not. Moreover, untested plans may actually create a false sense of security.n
   CNCS participated in the Federal Emergency Management Agency (FEMA)'s exercise to
   test the continuity of the executive branch through testing the continuation of National
   Essential Functions (NEFs). However, the test was not designed to test the preparedness of
   CNCS to operate in the case of a CNCS specific disruption. CNCS' COOP also requires an
   annual COOP exercise to train and test personnel, plans and capabilities . For this reason,
   CNCS should follow best Federal business practices and its own procedures to minimize the
   risk of unplanned interruptions. CNCS should also schedule the annual testing of its plan to
   recover critical operations should interruptions occur. These plans should consider the
   activities performed at general support facilities , such as data processing centers and
   telecommunications facilities, as well as the activities performed by users of specific
applications. To determine whether recovery plans will work as intended, they should be
tested periodically in disaster simulation exercises. The following matters were noted during
our audit:

   The Corporation's Continuity of Operation Plan (COOP), was not maintained in
   accordance with the Corporation's policies and procedures (ISP-P-11-0705). Below are
   issues we noted:

       The COOP is not updated annually in accordance with the Corporation policy. The
       last COOP update was in July 2006.

       The COOP is not updated with test results or lessons learned from test exercises.

   The Corporation has documented its Continuity of Operations Plan (COOP). However,
   the plan has not been tested to execute the scripted responses to emergencies (Levels
   1 through 4) to validate the effectiveness of the COOP and the preparedness of the
   Corporation to carry out its mission in the case of an emergency.

   In place of testing the COOP, the Corporation placed reliance on the evaluation of its
   COOP as part of the Federal Emergency Management Agency (FEMA) initiated Eagle
   Horizon exercise, dated May 8, 2008. However, the evaluation conducted by a third
   party Federal agency, did not include tests of Levels of Emergency (1 through 4)
   identified in the COOP. The result of the Eagle Horizon exercise was not used to update
   the COOP.

   The Corporation determined that the most critical function to be tested was the
   Corporation's ability to communicate through Blackberry devices in the event of a
   disaster. However, no business impact analysis was performed in support of this
   decision, and the COOP was not updated to include this level of testing.

   In lieu of testing the documented COOP, the Corporation performed two exercises that
   were specific to the BlackBerry devices. The two exercises tested the Corporation's
   ability to communicate with employees using this device during a disas1er. The
   Corporation did not document test results or lessons learned from the tests performed.
   Neither of the BlackBerry exercise responses were scripted within the current COOP. In
   addition, these exercises are not consistent with the Levels of Emergency (1 through 4).

Recommendations:

   1. Management should maintain the COOP and ensure that it is updated at least
      annually, or if major changes occur.
   2. Management should perform testing in accordance with the documented Corporation
      COOP and Federal standards.
   3. Management should document test results or lessons learned from the tests
      performed in order to identify gaps to be used for future updates to the plan.
   4. Management should update its business impact analysis to include the
      communications through B!ackBerry devices.
   5. Management should add the results of the BlackBerry exercise to the COOP.

                                ~**************~*************
In addition, we noted other matters involving internal control and its operation that we will report
to the Corporation management in a separate management letter.

Agency Comments and Our Evaluation

In commenting on the draft of this report (attached exhibit), Corporation management did not
concur with the facts and conclusions in our report, but stated that our recommendations "are
either in line with what we already have in place or can be readily adopted through improved
documentation". We did not perform audit procedures on the Corporation's written response to
the significant deficiencies and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, OMB, the Government Accountability Office and Congress, and
is not intended to be and should not be used by anyone other than these specified parties.




Calverton, Maryland
November 14, 2008
          APPENDIX


CORPORATION RESPONSE TO REPORT
                                 NATIONAL &
                                 COMMUNITY
                                 SERVICEr:r:r:b

MEMORANDUM

Date:          November 12,2008

To:            Gerald Walpin, Inspector General           ~

From:          David Eisner, Chief Executive Office~

Subject:       Draft report on the results ofOIG's audit of the Corporation's Fiscal Year
               2008 Finandal Statements


Thank you for the opportunity to comment on the draft report on the audit of the
Corporation's fiscal 2008 financial statements. The Corporation received an unqualified
opinion for the ni.nth year in a row and had no reported instance of noncompliance with
laws and regulations. These results reflect the Corporation's commitment to sound
financial management and the hard work by staff over the past year to improve
operations.

Beginning in January 2008, we experienced significant challenges in our information
systems when we upgraded our agency's core financial system and concurrently rolled
out an improved version of the AmeriCorps member portal. We took immediate action to
identify and correct the source of the problem and instituted additional short- and long-
term remedial actions. At all times, our general ledger system continued to process
required transactions, as evidenced by transaction logs for fiscal 2008, and there is no
record of any financial adjustments necessitated by the system challenges.

We note that the draft report contains numerous significant inaccuracies and omissions
relating to testing that was perfonned, organizational structure, applicable continuity of
operations procedures, and disaster recovery protocols. Our staff will communicate
separately with your office on these concerns to infonn your audit work moving forward.
Neveltheless, we are heartened that the auditors' reconunendations, relating to our
information systems and continuity of operations, are either in line with what we have
already put in place or can be readily adopted through improved documentation.




                                                      *
                                                                                        ~~
                        1201 New York Avenue, NW    Washington , DC 20525
                              202-606-5000     *
                                              www.nationalservice.org
                                                                                         Freedom Corps
                        Se.nior Corps   * AmeriCorps * Le.arn and Serve Amenca           Tho Prtoaidcnl's Ca..fl :0 SCJ'vicc:
